No. 20-222

 

 

IN THE

Supreme Court of the United States

GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS,

v.

ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR FINANCIAL ECONOMISTS AS
AMICI CURIAE SUPPORTING RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,315 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 3, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
